No. 20-18

In Irhe

Oupreme Court of the liniteb Otateo
ARTHUR GREGORY LANGE,
Petitioner,
V.
STATE OF CALIFORNIA,
Respondent.

On Writ Of Certiorari To The
Court Of Appeal Of The State Of California,
First Appellate Division

BRIEF OF THE NATIONAL FRATERNAL
ORDER OF POLICE, AS AMICUS CURIAE
IN SUPPORT OF THE JUDGMENT BELOW

LARRY H. JAMES
CRABBE, BROWN & JAMES, LLP
500 S. Front Street
Suite 1200
Columbus, OH 43215
614-229-4567
Email: ljames@cbjlawyers.com
Counsel for Amicus Curiae
National Fraternal Order of Police

COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCICLELEGALBRIEFS.COM

1

TABLE OF CONTENTS
Page
Statement of Interest of Amicus Curiae

1

Summary of Argument

2

Argument

5

I. A LAW ENFORCEMENT OFFICER IS
JUSTIFIED IN MAKING A WARRANTLESS ENTRY IN HOT PURSUIT OF A
SUSPECT WHO DISOBEYS A LAWFUL
ORDER MADE BY THE OFFICER FOR
THE PURPOSE OF CONDUCTING A
TERRY STOP OR MAKING AN ARREST
IN A PUBLIC PLACE
5
A. Enforcement of highway and traffic
safety laws protects the public
6
Unlicensed and uninsured drivers
7
Intoxicated drivers
9
B. Discourage flight for minor infractions
11
C. The rule set forth herein only applies
to "hot pursuits." If the pursuit "cools,"
the officer's warrantless entry is no
longer justified
14
II. DEPARTMENT PURSUIT POLICIES
AND OFFICER TRAINING MAKE CERTAIN THAT WARRANTLESS ENTRY
WHILE IN HOT PURSUIT OF A FLEEING SUSPECT IS RARE AND OBJECTIVELY JUSTIFIED
15

11

TABLE OF CONTENTS—Continued
Page
Police departments implement and enforce internal policies that clearly define when pursuit of a fleeing suspect
is—and is not—appropriate
16
Law enforcement officers are welltrained to make appropriate determinations on pursuit
21
Conclusion

24

111

TABLE OF AUTHORITIES
Page
CASES
Blanchester v. Hester, 612 N.E.2d 412 (Ohio Ct.
App. 1992)

14

Gasset v. State, 490 So.2d 97 (Fla. Ct. App. 1986)

2

Middletown v. Flinchum, 765 N.E.2d 330 (Ohio
2002)
11, 12, 13
State v. Ballou, 186 P.3d 696 (Idaho Ct. App.
2008)

14

State v. Hitch, 491 N.E.2d 1147 (Ohio Cty. Ct.
1985)

14

State v. Nichols, 484 S.E.2d 507 (Ga. Ct. App.
1997)

6

State v. Paul, 548 N.W.2d 260 (Minn. 1996)

14

State v. Ricci, 739 A.2d 404 (N.H. 1999)
Terry v. Ohio, 392 U.S. 1 (1968)

2
passim

United States v. Santana, 427 U.S. 38 (1976)

14

OTHER AUTHORITIES
Bridget Bowden, In Hot Pursuit Of Public
Safety, Police Consider Fewer Car Chases,
NPR (July 23, 2015), https://www.npr.org/2015/
07/23/425598535/even-if-a-car-chase-will-helppolice-nab-a-suspect-some-don-t

23

iv
TABLE OF AUTHORITIES—Continued
Page
Bryan Polcyn and Stephen Davis, "I don't
need a license:" Deadly Crashes Often
Caused by Drivers Who Have Never Been Licensed, Fox 6 Now (May 22, 2019, 10:14 PM),
https://fox6now.com/2019/05/22/i-dont-needa-license-to-drive-deadly-crashes-have-commonthread/

8

Columbus Police Division Directive 5.02, Vehicular Pursuits
19, 20
David P. Schultz, Ed Hudak, and Geoffrey P
Alpert, Ph.D., Evidence-Based Decisions on
Police Pursuits: The Officer's Perspective,
Law Enforcement Bulletin (Mar. 1, 2010),
https://leb.fbi.gov/articles/featured-articles/
evidence-based-decisions-on-police-pursuitsthe-officers-perspective
16, 17, 21, 22
Drunk Driving, National Highway Traffic Safety
Administration, https://www.nhtsa.gov/riskydriving/drunk-driving (last visited Jan. 11,
2021)

9

Fatality Analysis Reporting System, U.S. Department of Transportation National Highway
Traffic Safety Administration, https://www.
nhtsa.gov/research-data/fatality-analysisreporting-system-fars (last visited June 19,
2019)

7, 8

Impaired Driving: Get the Facts, CDC,
https ://www. cdc. gov/trans portati on s afety/
impaired_driving/impaired-drv_factsheet.html
(last visited Jan. 11, 2021)

9

V

TABLE OF AUTHORITIES—Continued
Page
Law officers complete advanced emergency vehicle operations training at Mid-Ohio Sports
Car Course, richlandsource (Mar. 25, 2014),
https://www. richlandsource. com/new s/law officers-complete-advanced-emergency-vehicleoperations-training-at-mid-ohio-sports-carcourse/article_leec26f4-b409-11e3-9468-001a4bc
f6878.html

22

Mac Demere, Why High-Speed Police Chases
Are Going Away, Popular Mechanics (May 30,
2013), https://www.popularmechanics.com/cars/
a9096/why-high-speed-police-chases-are-goingaway-15532838/

20

Sonoma County Sheriff's Office, Section 314—
Vehicle Pursuits, Policies and Procedures

16

Statistics, MADD, https://www.madd.org/statistics/
(last visited Jan. 11, 2021)

9

Sukhvir S. Brar, California Department of Motor Vehicles, Estimation of Fatal Crash Rates
for Suspended/Revoked and Unlicensed Drivers in California (2012)

7

Traffic Tech, Technology Transfer Series (Feb.
1995), https://one.nhtsa.gov/people/outreach/
traftech/1995/tt085.htm

9

Uninsured Motorists, NATIONAL ASSOCIATION OF
INSURANCE COMMISSIONERS (July 16, 2018)

8

1
STATEMENT OF INTEREST
OF AMICUS CURIAE'
The National Fraternal Order of Police ("NFOP")
is the world's largest organization of sworn law enforcement officers, with more than 350,000 members
in more than 2,100 lodges across the United States.
The NFOP is the voice of those who dedicate their lives
to protecting and serving our communities, representing law enforcement personnel at every level of crime
prevention and public safety nationwide. The NFOP offer their service as amicus curiae when important police and public safety interests are at stake, as in this
case.
Today, law enforcement officers are challenged at
every turn. The law permits officers, based on specific
and articulable facts, "together with rational inferences from those facts," to conduct brief, investigatory
stops of individuals to address violations of the law. See
Terry v. Ohio, 392 U.S. 1, 21 (1968). These de minimis
interruptions are aimed at public safety and may last
less than minutes. But, in the course of carrying out
their duty to protect and serve the public vis-à-vis
these brief stops, their authority may be tested by a
suspect in real time and their actions examined
In accordance with Rule 37.6, the NFOP and undersigned
counsel make the following disclosure statements. The submission of this Brief was consented to by all parties hereto. The Office
of General Counsel to the National Fraternal Order of Police authored this Brief in its entirety. There are no other entities which
made monetary contributions to the preparation or submission of
this Brief.

2
retrospectively under a microscope by the department,
public, and news media.
When a law enforcement officer's lawful command
is challenged, ignored, or outright disobeyed, and a
suspect vanishes into a home or other dwelling, the
Fourth Amendment must not turn into a shield to
thwart the officer's immediate pursuit. This case from
the California Court of Appeal, First Appellate District, presents this Court with an opportunity to clarify
some confusion among lower courts and assist law enforcement and the public in ascertaining clear expectations for both to follow. It is with this backdrop in
mind that the NFOP respectfully seeks to be heard in
this matter.
♦

SUMMARY OF ARGUMENT
"Law enforcement is not a child's game of prisoners base, or a contest, with apprehension and conviction depending upon whether the officer or defendant
is the fleetest of foot." State v. Ricci, 739 A.2d 404, 408
(N.H. 1999) (citing State v. Blake, 468 N.E.2d 548, 553
(Ind. Ct. App. 1984)); see also Gasset v. State, 490
So.2d 97, 98-99 (Fla. Ct. App. 1986) ("The enforcement
of our criminal laws, including serious traffic violations, is not a game where law enforcement officers
are 'it' and one is 'safe' if one reaches 'home' before being tagged."). Just as law enforcement officers cannot
create an exigent circumstance in order to avoid the
Fourth Amendment's warrant requirement, suspects

3
must not be permitted to trigger the need for a warrant
by outracing the police to the sanctity of a home or
other dwelling.
An order from a law enforcement officer to "PULL
OVER" or "STOP," be it verbal or demonstrated by activating overhead lights or sirens, should be universally understood and obeyed. Unfortunately, it is not.
The real time, continuously unfolding nature of law enforcement interaction with the public requires a willingness to make a split-second decision in a life or
death scenario. And law enforcement officers operate
in an arena of uncertainties. Officers are struggling to
discern the rules that they are required to follow. This
appears to be a case where this Court can help both
law enforcement and the public by setting some parameters.
As set forth below, the NFOP respectfully requests
this Court affirm the judgment below. In the alternative, for the benefit of members of the public and the
boots-on-the-ground officers, the Court should declare
in no uncertain terms: When a law enforcement officer
demonstrates an intent to conduct a brief investigatory
(Terry) stop, or to set in motion an arrest in a public
place, and the suspect disobeys (or ignores) that officer's
lawful order, the officer is justified in entering a home
(or other dwelling) without a warrant while in hot pursuit of that suspect. To be clear, the NFOP does not advocate for unrestrained ambition for its officers to
effectuate lawful stops and arrests. To the contrary, the
rule set forth herein is narrow in that it only applies
in a very limited set of circumstances:

4
the law enforcement officer announces
their intent to conduct a Terry stop or set in
motion an arrest in a public place (i.e., yelling
"Stop" or activating the overhead lights or siren on the vehicle);
the suspect disobeys or ignores the officer's order; and
the officer, in hot pursuit, follows that
suspect into a home or similar dwelling.
Only in the scenario described above, does the Fourth
Amendment warrant requirement yield according to
the ruling advocated for herein. The NFOP submits
that such a ruling makes sense for two reasons. First,
in pursuing a suspect, experience and training suggest
that the officer has already determined the suspect in
flight poses a serious threat to public safety. Second,
internal mechanisms such as department pursuit policies and officer training exist to make certain these
policing practices are carefully considered and do not
go unchecked.
1. Law enforcement officer experience and
training suggest that the decision to pursue a fleeing suspect is made because
that suspect poses a serious threat to
public safety. The officer has determined,
based upon his or her experience and
training, that the danger presented to the
public because the individual may be uninsured, unlicensed, intoxicated, armed,
or the like, coupled with the suspect's decision to flee, warrants immediate pursuit
and apprehension. In other words, the

5
decision is not made without serious consideration and balancing of the various
dangers and interests at stake. And only
at that point, is the officer is justified in a
warrantless entry. This principle furthers
law enforcement's mission to maintain
safe roadways. Furthermore, the Court's
affirmation of the judgment below, or in
the alternative adoption of the rule set
forth herein, will discourage flight for minor offenses.
2. Police departments and law enforcement
officers are constrained by internal mechanisms such as pursuit policies and emergency vehicle operations training. These
policies and trainings exist irrespective of
any case law and ensure that a ruling by
this Court in favor of law enforcement
will not encourage aggressive policing
practices.
♦

ARGUMENT
I. A LAW ENFORCEMENT OFFICER IS JUSTIFIED IN MAKING A WARRANTLESS ENTRY IN HOT PURSUIT OF A SUSPECT
WHO DISOBEYS A LAWFUL ORDER MADE
BY THE OFFICER FOR THE PURPOSE OF
CONDUCTING A TERRY STOP OR MAKING
AN ARREST IN A PUBLIC PLACE.
If an officer decides to pursue a suspect who disobeys a lawful order made by the officer, it is because

6
the officer's experience and training advise that the
suspect poses a serious threat to public safety, irrespective of whether the underlying crime in question is a
felony or misdemeanor. In recognition of the many
risks associated with pursuing a criminal suspect, law
enforcement officers do not pursue individuals unless
they have determined that there are exigent circumstances warranting such an action. In other words,
from law enforcement's perspective, the decision to
pursue means exigent circumstances exist. See also
State v. Nichols, 484 S.E.2d 507,508 (Ga. Ct. App. 1997)
("[T]he key to 'hot pursuit' is that the defendant is
aware he is being pursued by the police, and is therefore likely to disappear or destroy evidence of his
wrongdoing if the officer takes the time to get a warrant. In other words, the 'hot pursuit' provides the exigent circumstances necessary to justify the failure to
obtain a warrant."). Should this Court affirm the judgment below, or in the alternative adopt the rule set
forth herein, the resulting benefits to the public and
law enforcement would greatly outweigh any perceived
harms to constitutional principles.
A. Enforcement of highway and traffic
safety laws protects the public.
The first resulting benefit is safer roadways. Law
enforcement officers are responsible for patrolling our
state highways and municipal roads to detect and deter traffic violations. Regardless of whether an officer
observes a relatively minor traffic infraction (such as
driving with a suspended license, playing loud music,

7
or honking for no apparent reason) or an objectively
more serious violation (such as driving under the influence)—that officer's duty remains the same: to enforce the law in furtherance of public safety by
preventing automobile accidents.
The rationale in support of prohibiting conduct
like that of the Petitioner is identical to the purpose
behind rules prohibiting driving under the influence,
leaving the scene of an accident, ignoring stop signs,
and driving without insurance or a license. The public
is safer when highway and traffic safety laws are enforced, and we entrust law enforcement officers with
that duty. Accordingly, when a driver decides that he or
she may avoid the consequences of a possible traffic violation by fleeing into a home, public safety considerations justify an officer's warrantless entry into that
home to pursue and apprehend the suspect.
i. Unlicensed and uninsured drivers.
Motorists without licenses are considerably more
dangerous than validly licensed drivers. Sukhvir S.
Brar, California Department of Motor Vehicles, Estimation of Fatal Crash Rates for Suspended/Revoked
and Unlicensed Drivers in California (2012). In 2017,
a full 16% of passenger vehicle deaths involved unlicensed drivers, and studies in 2011 and 2012 found
that 20% of all fatal crashes involved at least one
driver who was not validly licensed. Fatality Analysis
Reporting System, U.S. Department of Transportation
National Highway Traffic Safety Administration,

8
https://www.nhtsa.gov/research-data/fatality-analysisreporting-system-fars (last visited June 19, 2019). Unlicensed drivers are also nine times more likely to leave
the scene of a crash than those with valid licenses. And
unlicensed driving is not a rare phenomenon. For example, in the City of Milwaukee, more than 43,000
drivers have been cited for driving while unlicensed,
suspended, or revoked in the last three years. Bryan
Polcyn and Stephen Davis, "I don't need a license:"
Deadly Crashes Often Caused by Drivers Who Have
Never Been Licensed, Fox 6 Now (May 22, 2019, 10:14
PM), https://fox6now. com/2019/05/22/i-dont-need-a-licenseto-drive-deadly-crashes-have-common-thread/.
Moreover, when a driver is unlicensed, it is almost
guaranteed that he or she is also uninsured. An estimated 13% of motorists (equal to one out of every eight
drivers) are uninsured. Uninsured Motorists, NATIONAL
ASSOCIATION OF INSURANCE COMMISSIONERS (July 16,
2018). These drivers not only represent a threat to the
safety of our nation's roadways, but they have a significant collateral impact on the public at large. After all,
it is validly licensed and insured motorists who bear
the costs created by uninsured drivers in the form of
uninsured motorist coverage. Further, victims of car
accidents involving uninsured motorists may struggle
to obtain compensation for their injuries.
In light of the above, there is a substantial public
interest in maintaining the safety of our roadways
which justifies a de minimis intrusion on constitutional protections when a driver suspected of driving
without a license and/or insurance, flees from an

9
officer, and the officer makes a warrantless entry in hot
pursuit of that suspect. The public expects—and law
enforcement officers have sworn a duty to enforce—
policies that are designed to increase the safety of the
tens of millions of drivers throughout the country. The
actions of Officer Weikert in this case, and of all police
officers who effectuate traffic stops under similar circumstances, illustrate the embodiment of that duty.
ii. Intoxicated drivers.
Every day, almost 30 people in the United States
die in drunk driving crashes—the equivalent of one
person every 50 minutes. Drunk Driving, National
Highway Traffic Safety Administration, https://www.
nhtsa.gov/risky-driving/drunk-driving (last visited
Jan. 11, 2021). Drunk driving crashes claim more
than 10,000 lives per year. Id. Furthermore, about
one third of all drivers arrested for drunk driving are
repeat offenders. Traffic Tech, Technology Transfer
Series (Feb. 1995), https://one.nhtsa.gov/people/outreach/
traftech/1995/tt085.htm. According to Mothers Against
Drunk Driving (MADD), drunk driving costs the
United States $132 billion per year. Statistics, MADD,
https://www.madd.org/statistics/ (last visited Jan. 11,
2021). According to the CDC, in 2016, more than 1 million drivers were arrested for driving under the influence of alcohol or narcotics. Impaired Driving: Get the
Facts, CDC, https://www.cdc.gov/transportationsafety/
impaired_driving/impaired-drv_factsheet.html (last visited Jan. 11, 2021). Too often, law enforcement officers
are the only line of defense against this fatal threat to

10
the public by removing these drivers from the roadways.
An officer in the same position as California Highway Patrol Officer Aaron Weikert could reasonably
suspect that Petitioner was driving while intoxicated
based on his actions of playing loud music, honking his
horn four to five times for no apparent reason, and
slowing to a stop in the middle of the road. And Officer
Weikert's pursuit of Petitioner in his patrol vehicle put
Petitioner on notice that the police were, at the very
least, suspicious of his conduct. Thus, any delay caused
by the time it took Officer Weikert to obtain a warrant
created a circumstance that may have resulted in the
destruction of evidence. If Petitioner's arrest had been
delayed, he would have had the opportunity to drink
alcohol in his home, thereby obscuring the source of
any alcohol in his system and making it difficult, if not
impossible, to determine the amount of alcohol that
was in his system while he was driving his vehicle.
Moreover, even if Petitioner did not try to destroy evidence of his blood-alcohol level, this evidence would
naturally dissipate during any delay.
Accordingly, the public benefits greatly when an
officer, in hot pursuit of a suspected drunk driver that
has ignored the officer's commands to "Stop" or "Pull
over," makes a warrantless entry to effectuate the stop
and/or arrest. Experience and training suggests that
nearly one-third of these drivers are or will be repeat
offenders. The public should not be expected to rely on
intoxicated drivers to police themselves in furtherance
of the public interest to free the roadways from drunk

11
drivers. The actions of Officer Weikert in this case—
and of all law enforcement officers who pursue individuals under similar circumstances—are necessary to
maintain the safety of our roadways.
B. Discourage flight for minor offenses.
The second resulting benefit is that suspected offenders will be discouraged from fleeing for objectively
minor violations of the law. If such evasions were permitted, every attempted stop of an individual by law
enforcement (whether on foot or in a vehicle) could potentially result in a race back to the individual's home
or another private dwelling. To be sure, a contrary
holding would lead to the opposite problem: in every
case involving a minor offense, the suspect would have
an incentive to flee law enforcement because flight itself would not justify application of the hot pursuit doctrine.
The Ohio Supreme Court adopted this approach
and reasoning in Middletown v. Flinchum. Middletown
police officers observed appellant Thomas Flinchum's
car stopped at a red traffic light. Middletown v.
Flinchum, 765 N.E.2d 330 (Ohio 2002). When the light
changed, the appellant spun his car's tires. Id. The officers then observed the appellant stopping his car and
then rapidly accelerating, causing the car to fishtail as
it made a right turn. Id. At that point, the officers decided to follow him. Id. The officers attempted to approach the vehicle twice, but each time the appellant
fled. Id. Eventually, the officers spotted the vehicle
parked with the appellant standing beside it. Id. When

12
he saw the officers stop near his car, the appellant ran
towards the rear entrance of a house. Id. at 331. He
was pursued by one of the officers on foot, who yelled
"Stop" and "Police" several times, to no avail. Id. As the
foot pursuit continued, the officer heard a door slam
open on the house. Id. The officer then observed the
appellant standing in a kitchen approximately five feet
inside the home. Id. Without the appellant's permission, the officer entered the home and arrested him. Id.
The appellant was charged with reckless operation of
a motor vehicle, driving under the influence, and resisting arrest. Id. He argued that the Middletown police unlawfully entered his home without probable
cause and under no exigent circumstances, because his
traffic violation was merely a misdemeanor. Id.
Finding that the appellant's arguments were without merit, the Ohio Supreme Court held that when officers, having identified themselves, are in hot pursuit
of a suspect who flees to a house in order to avoid arrest, the police may enter without a warrant regardless
of whether the offense for which the suspect is being
arrested is a misdemeanor. Id. As the court explained:
[W] e see no reason to . . . give [appellant] a
free pass merely because he was not charged
with a more serious crime. The basic fact remains that appellant fled from police who
were in lawful pursuit of him and who had
identified themselves as police officers. . . . In
so holding, we do not give law enforcement unbridled authority to enter a suspect's residence at whim or with blatant disregard for
the constraints of the Fourth Amendment, but

13
rather limited to situations present in today's
case.
Id. at 332.
The Ohio Supreme Court's holding in Flinchum
supports the on-the-ground realities faced by officers.
The real time nature of law enforcement means that
once flight occurs, the underlying offense becomes an
afterthought. At the forefront of the officer's mind include questions like why is this person fleeing? Are
there innocent bystanders at risk? Is the suspect on
foot or in a vehicle? What are the environmental conditions? Is the suspect armed? Are drugs and/or alcohol
involved? Is back-up available?
Indeed, the rule set forth by the Ohio Supreme
Court, which the NFOP supports, applies to the limited
circumstances when: (1) the law enforcement officer
announces their intent to conduct a Terry stop or set in
motion an arrest in a public place (i.e., by yelling "Stop"
or activating the overhead lights or siren on the vehicle); (2) the suspect disobeys or ignores the officer's order; and (3) the officer, in hot pursuit, follows that
suspect into a home. This is a workable mandate that
both the public and law enforcement can implement,
setting reasonable expectations for all encounters.

14
C. The rule set forth herein only applies
to "hot pursuits." If the pursuit "cools,"
the officer's warrantless entry is no
longer justified.

Finally, the sought-after ruling is narrow. This
case, and similar factual circumstances faced by law
enforcement, only concerns "hot" pursuits. The doctrine of hot pursuit applies whether a police officer
engages in a high-speed chase or merely approaches a
suspect who immediately retreats into a house. See
State v. Paul, 548 N.W.2d 260, 265 (Minn. 1996). Indeed, this Court noted in United States v. Santana
that, although hot pursuit usually means some sort of
a chase, "it need not be an extended hue and cry 'in and
about [the] public streets." 427 U.S. 38, 43 (1976).
However, not every pursuit is necessarily "hot" and
there may be a point when a pursuit is no longer sufficiently continuous to be considered "hot" so as to justify
the warrantless entry of a home. See, e.g., Blanchester
v. Hester, 612 N.E.2d 412 (Ohio Ct. App. 1992) (warrantless entry of defendant's residence to arrest him
for failure to yield the right-of-way and fleeing and
eluding was unjustified where no hot pursuit occurred;
there were no witnesses that saw any lights or heard
any sirens and the distance which defendant traveled
from the point of the police encounter to his home was
short-0.2 miles); State v. Hitch, 491 N.E.2d 1147 (Ohio
Cty. Ct. 1985) (hot pursuit become "cold" during the
20 minutes that lapsed before back-up assistance arrived and the police's subsequent warrantless entry);
State v. Ballou, 186 P.3d 696 (Idaho Ct. App. 2008) (hot

15
pursuit doctrine did not apply where 40 minutes
elapsed between the time police officers lost sight of
the suspect and the time the officers knocked on the
suspect's apartment door).
The NFOP and its members 'recognize that there
are circumstances that can cause a hot pursuit to
"cool," and therefore, require a warrant to enter a private dwelling. However, the Court need not use this
case to produce a bright-line between where a hot pursuit is no longer considered "hot." Rather, the NFOP
draws the Court's attention to this point merely to
highlight the narrow nature of the sought-after ruling.
II. DEPARTMENT PURSUIT POLICIES AND
OFFICER TRAINING MAKE CERTAIN
THAT WARRANTLESS ENTRY WHILE IN
HOT PURSUIT OF A FLEEING SUSPECT
IS RARE AND OBJECTIVELY JUSTIFIED.
The decision to pursue a suspect who only seconds
earlier disobeyed a lawful command from law enforcement is the most critical risk-reward dilemma faced by
officers. In the ideal scenario, the offender will be
quickly apprehended with no harm done to the offender, the officer, or any bystanders. Unfortunately,
police pursuits can have dangerous and sometimes
deadly implications. Thus, the decision to pursue is
only made after careful consideration. In recognition of
law enforcement's monumental responsibility to act
in the public's best interest, officers are trained on
how to assess various factors before deciding to pursue

16
a suspect. In addition, most departments have implemented comprehensive pursuit policies that must be
followed by the officers.
All that is to say, simply because the officer is justified in entering a home during a hot pursuit without
a warrant, does not mean that they will. A ruling by
this Court affirming the judgment below, or adopting
the rule set forth herein, will not negate law enforcement training on assessing risk factors or eliminate
police department policies on safely pursuing criminal
suspects.
A. Police departments implement and enforce internal policies that clearly define when pursuit of a fleeing suspect
is—and is not—appropriate.
"Vehicle pursuits expose innocent citizens, law enforcement Deputies and fleeing violators to the risk
of serious injury or death." Sonoma County Sheriff's
Office, Section 314—Vehicle Pursuits, Policies and Procedures. In other words, law enforcement officers appreciate the danger of a "hot pursuit." Pursuit policies
are designed to protect the officer and the public. Departments balance the need to immediately apprehend
a fleeing suspect with the risk created by the chase in
order to form the foundation of police pursuit policies.
David P. Schultz, Ed Hudak, and Geoffrey P. Alpert,
Ph.D., Evidence-Based Decisions on Police Pursuits:
The Officer's Perspective, Law Enforcement Bulletin

17
(Mar. 1, 2010), https://leb.fbi.gov/articles/featured-articles/
evidence-based-decisions-on-police-pursuits-the-officersperspective.
For example, the "Vehicle Pursuit" policy adopted
by the Sonoma County, California Sheriff's Office2 provides, in part, (1) when to initiate a pursuit, (2) when
to terminate a pursuit, and (3) pursuit driving tactics.
The policy asks deputies to consider the following in
deciding whether to initiate a pursuit:
Seriousness of the known or reasonably
suspected crime and its relationship to community safety.
The importance of protecting the public
and balancing the known or reasonably suspected offense and the apparent need for immediate capture against the risks to Deputies,
innocent motorists and others.
Apparent nature of the fleeing suspect(s)
(e.g., whether the suspect(s) represent a serious threat to public safety).
The identity of the suspect(s) has been
verified and there is comparatively minimal
risk in allowing the suspect(s) to be apprehended at a later time.
Safety of the public in the area of the pursuit, including the type of area, time of day,
The NFOP does not suggest that Officer Weikert's actions
were governed by the Sonoma County Sheriff's Office policy on
vehicle pursuits. The Sonoma County policy is cited only as an
example of a pursuit policy.

18
the amount of vehicular and pedestrian traffic
and the speed of the pursuit relative to these
factors.
Pursuing officer(s) familiarity with the
area of the pursuit, the quality of radio communications between the pursuing units and
the dispatcher/supervisor and the driving capabilities of the pursuing Deputies under the
conditions of the pursuit.
Weather, traffic and road conditions that
substantially increase the danger of the pursuit beyond the worth of apprehending the
suspect.
Performance capabilities of the vehicles
used in the pursuit in relation to the speeds
and other conditions of the pursuit.
Vehicle speeds.
Other persons in or on the pursued vehicle (e.g., passengers, co-offenders and hostages).
Availability of other resources such as
helicopter assistance.
(1) The police unit is carrying passengers
other than Deputies. Pursuits should not be
undertaken with a prisoner(s) in the police vehicle.
Thus, a Sonoma County law enforcement officer has no
less than twelve factors to consider before initiating a
pursuit. If these factors weigh in favor of hot pursuit,

19
the officer will have determined that a sufficient exigency exists to warrant such a dangerous endeavor.
As another example, the Columbus, Ohio Police
Department ("CPD") Vehicular Pursuit Policy states as
follows:
II. Policy Statements
A respect for human life shall guide officers in determining whether to engage in or
terminate a vehicular pursuit. Officers shall
act within the boundaries of legal guidelines
and Division policy when engaging in a vehicular pursuit.
Sworn personnel shall terminate a pursuit if the immediate danger of initiating or
continuing the pursuit is greater than the immediate or potential danger to the public if
the suspect remains at large.
Columbus Police Division Directive 5.02, Vehicular
Pursuits. The CPD Policy goes on to state:
1. Sworn personnel shall not engage in vehicular pursuits unless:
a. There is reasonable suspicion the suspect
vehicle was used in, contains evidence of, is
needed for the investigation of, or an occupant
committed or has an active felony warrant for
an offense involving:
(1) The attempted, threatened, or actual infliction of serious physical harm to a person,
or

20
(2) The display, threatened use, or use of a
deadly weapon.
b. The suspect, presents a greater danger to
human life than the potential and immediate
dangers of pursuing the suspect. Fleeing, in
and of itself, does not constitute a danger to
human life for the purpose of this section.
Id. Thus, a Columbus police officer is only authorized
to pursue a suspect if specific circumstances apply.
Approximately 20% of police departments with a
pursuit policy only allow pursuits for felony offenses.
Mac Demere, Why High-Speed Police Chases Are Going
Away, Popular Mechanics (May 30, 2013), https://www.
popularmechanics . com/cars/a9096/why-hi gh- sp ee d police-chases-are-going-away-15532838/ (citing IACP
study). And half of police departments with such a policy require officers to end the pursuit when the suspect
has been identified. Id.
In addition to officer and public safety concerns
discussed, pursuit policies are necessary due to resource constraints within a department. Pursuit often
requires back-up. In jurisdictions where one or two officers are responsible for patrolling a large area, a pursuit may be unsustainable. Accordingly, pursuits are
relatively rare occurrences.
These are institutional controls and practical realities that exist irrespective of any common law. As a
result, a ruling by this Court in support of the judgment below, or in the alternative, adopting the rule set
forth herein, will not grant law enforcement officers

21
carte blanche entry into homes during a hot pursuit,
because departments in every jurisdiction have detailed pursuit policies like the examples cited above
which restrict an officer's ability to initiate a pursuit in
the first place. Moreover, law enforcement officers
must obey these internal policies or risk insubordination charges and discipline.
B. Law enforcement officers are welltrained to make appropriate determinations on pursuit.
Law enforcement officers are trained to balance
the goals of law enforcement in apprehending suspects
with the public's safety interests. In addition to following their department's pursuit policy, officers are
trained to evaluate multiple considerations before
first, initiating a pursuit, and second, following the
suspect into a home. These considerations include, but
are not limited to, environmental conditions; the time
and place; the availability Of back-up; whether the suspect is armed; evidence or the presence of drugs and/or
alcohol; the presence of passengers or accomplices; the
likelihood of apprehension; the presence of innocent
bystanders; and when to abandon pursuit.
In addition, an officer must be aware of any personal capabilities that may affect his or her ability to
pursue a criminal suspect and accomplish the overall
mission of the law enforcement, which is to protect
and serve the public. David P. Schultz, Ed Hudak, and
Geoffrey P. Alpert, Ph.D., Evidence-Based Decisions on

22
Police Pursuits: The Officer's Perspective. Consequently,
merely because the officer may be justified in entering a
home during a hot pursuit, does not mean that they
will. Each situation involving a potential pursuit will
present different circumstances, and the various considerations outlined above are constantly evolving and
happening in real time. Officers must be afforded the
discretion and freedom to rely on their training in
these situations.
Police departments around the country have developed innovative training programs to prepare officers for the critical—and often dangerous—moment in
which they must decide whether to pursue a fleeing
suspect. For example, the Ohio Department of Public
Safety offered a six-hour training program with both
classroom instruction and practical exercises from
Ohio State Highway Patrol Emergency Vehicle Operations Instructors and veteran race car drivers, designed to heighten the skill level of officers around the
state to operate a patrol vehicle in the most efficient
and safest manner possible. See Law officers complete
advanced emergency vehicle operations training at
Mid-Ohio Sports Car Course, richlandsource (Mar.
25, 2014), https://www.richlandsource.com/news/lawofficers-complete-advanced-emergency-vehide-operationstraining-at-mid-ohio-sports-car-course/article_leec26f4b409-11e3-9468-001a4bcf6878.html.
Furthermore, advances in technology have reduced the overall number of police pursuits in recent
years, a trend which is likely to continue as new technology becomes accessible to more police departments.

23
See Bridget Bowden, In Hot Pursuit Of Public Safety,
Police Consider Fewer Car Chases, NPR (July 23, 2015),
https://www.npr.org/2015/07/23/425598535/even-if-acar-chase-will-help-police-nab-a-suspect-some-don-t.
Helicopters and drones are available in many departments to assist in tracking a fleeing suspect. There is
also StarChase, a system that shoots a GPS-tracking
dart from the front of police car onto a fleeing vehicle.
As further technological advances continue to supplant the necessity of traditional "hot pursuits" on foot
or by vehicle, the sought-after ruling herein may apply
to an ever decreasing number of scenarios.
A ruling by this Court in favor of law enforcement
would merely remove one consideration for the officer
out of the dozens that factor into a decision to pursue.
A ruling to the contrary will alienate rank-and-file officers by suggesting that law enforcement cannot be
trusted to make calculated decisions on when and
when not to pursue a suspect.
Finally, the NFOP would be remiss if it did not
mention the parade of horribles Petitioner and others
may argue will occur should the Court side with Respondent and amici. For example, some may express
concern about hot pursuits leading to arrests for the
most minor offenses, such as walking an unlicensed
puppy. Should this fact pattern occur—wherein an officer briefly stops an individual suspected of walking
an unlicensed puppy, the individual flees into a home,
and the officer follows the individual into the home
without a warrant—the state court would be free to
hold as a matter of state law that hot pursuit of a

24
suspect for failure to properly license their puppy
cannot justify warrantless entry into a home. Furthermore, the department pursuit policies and officer training discussed above will govern the officer's conduct.
Until courts are fraught with similar actions by law
enforcement, the lower court's determination, or in the
alternative the rule expressed herein, is most in line
with reality.
♦

CONCLUSION
Law enforcement officers are struggling to ascertain the rules and expectations by which they perform
their public safety function. This Court can help. A ruling in support of the judgment below, or in the alternative, adopting the rule set forth herein, benefits both
law enforcement and the public. First, it promotes public safety, especially on the roadways. Officers are experienced and trained, through brief, investigatory
(Terry) stops, to detect and determine if a driver is unlicensed, uninsured, intoxicated, or even armed. When
a suspect attempts to subvert a stop, there is a risk
that unlawful and dangerous conduct may go undetected. It further discourages flight. Second, it is not a
broad pronouncement of law enforcement authority.
Instead, it is a clarification that sets expectations for
police and public.
Finally, controls such as department pursuit policies and officer training ensure that the sought-after
ruling will not lead to aggressive policing practices.

25
Instead, these institutional mechanisms make certain
pursuit of a fleeing suspect (and subsequent warrantless entry) is rare and objectively justified.
For the foregoing reasons, the NFOP respectfully
requests this Court affirm the judgment below, or in
the alternative adopt the rule set forth herein, and find
that when a law enforcement officer demonstrates an
intent to conduct a brief investigatory (Terry) stop, or
set in motion an arrest in a public place, and the suspect disobeys (or ignores) that officer's lawful order, the
officer, while in hot pursuit of that suspect, is justified
in a warrantless entry.
Respectfully submitted,
LARRY H. JAMES
CRABBE, BROWN & JAMES, LLP
500 S. Front Street
Suite 1200
Columbus, OH 43215
614-229-4567
Email :1j ames@cbj lawyers. com
Counsel for Amicus Curiae
National Fraternal Order of Police

